/\0
No.

3-1 -

o

IN THE
SUPREME COURT OF THE UNITED STATES

CARLOS SANTIAGO
Petitioner^ p
v.
JOSEAN TOUCET ET AL.
Respondent
♦

On Petition for a Writ of Certiorari
To the United States Supreme Court
From the Puerto Rico Supreme Court

FILED
JUN 0 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

PETITION FOR A WRIT OF CERTIORARI

Carlos W. Santiago-Rivera
Torre de Oro Condominium - Apt. 808
2175 Luis A. Ferre Blvd.
Ponce, P.R. 00717
Tel. 787-391-7069
<farmgabriela3@gmail.com>

-li-

Questions Presented

A = If due process of law is violated when a judge in a hidden trial disappears and
erases from his judgment the confession obtained through strong cross-examination
as stipulated in the complaint.

B = If the equal protection under the law is breached when a judge denies the
complainant his determination so that the complainant cannot appeal the adverse
judicial opinion.

-ni-

List of all Proceedings in Other Courts That Are Directly Related to the
Present Case in the Supreme Court

Accusation, Carlos Santiago, et al v. Josean Toucet, et al, Q-2008-3-057-3875
(Criminal), Commonwealth of Puerto Rico, Municipal Court, Penuelas Part.
Judgment Entered November 13, 2008

Josean Toucet, et al v. Carlos Santiago, et al, JDP-2009-0338, Commonwealth of
Puerto Rico, Court of First Instance, Ponce Part. Judgment entered August 21,
2019.Not related to the Supreme Court because it was revoked by the Puerto Rico
Court of Appeals.

Josean Toucet, et al v. Carlos Santiago, et al, KLAN 2019-0983, Puerto Rico Appeals
Court, Judgment entered July 15, 2020.

Josean Toucet, et al v. Carlos Santiago, No. AC-2020-0051, Commonwealth of
Puerto Rico Supreme Court, Resolution entered February 8, 2021.

-IV-

TABLE OF CONTENTS
Page
QUESTION PRESENTED

11

LIST OF ALL PROCEEDINGS IN OTHER COURTS THAT ARE DIRECTLY
RELATED TO THE PRESENT CASE IN THE SUPREME
PETITION FOR A WRIT OF CERTIORARI and JURISDICTION

m
vi

I.

Statement of the Case

1

II.

Predetermined Judicial Proceedings

2

III.

The Court Concealed a Confession

3

IV.

State Representative Abandons the Non-Concluded Hearing

5

V.

Complainant Never Received a Ruling

7

VI.

Undue Intrusion by the Court

8

VII.

Preconceived Judicial Proceedings

9

VIII. Prayer

10

JURISPRUDENCE
Brady V. Maryland 373 U.S. 83 Supreme Court (1963

5

Gideon V. Wainwright: 372 U.S. 335 (1963) US Supreme Court

6

Mooney V. Holahan, 294 U.S. 103, 112

5

United States Supreme Court: Pyle V. Kansas, 317 U.S. 213 (1942)

5

ARTICLE II: Bill of Rights of the Puerto Rico Constitution, Section 7:
Due Process of Law and Equal Protection Under the Law

7-8

-V-

APPENDIX
Page No.
#1

Case No. AC-2020-0051 Resolution and Notification
Ruling - Dated January 15, 2021
Ruling - Dated October 10, 2020

2-5

#2

Case No: KLAN 2019-0983 Judgment

#3

Q -2008-3-057-3875 Accusation and Judgment Exhibit XXIII

29-30

#4

Q -2008-3-057-3875 Exhibit XXIII Attachment 2F

31-32

Case No: JDP 2009-0338 Judgment (has no appendix number
because it was not discussed in the petitioner’s argument)

33-63

Translations Certifications

64-65

6-28

-VI-

PETITION FOR A WRIT OF CERTIORARI
The Supreme Court of Puerto Rico in its ruling nothing to provide. The Court of
Appeals in its judgment does not respond to the petition. If due process of law is
violated when a judge in a hidden trial disappears the confession obtained through
strong cross-examination as stipulated in the complaint, is erased from his
sentence.

The Supreme Court of Puerto Rico in its ruling nothing to provide. The Court of
Appeals in its judgment does not respond to the petition. If the equal protection
under the laws is breached when a judge denies the complainant his determination
so that the complainant cannot appeal the adverse judicial opinion.

JURISDICTION
Article III, Section II of the Constitution establishes the jurisdiction of the Supreme
Court. The Supreme Court has appellate jurisdiction on almost any case that
involves a point of constitutional and/or federal law. Therefore, the Supreme Court
has the final say over when a right is protected by the Constitution o when a
constitutional right is violated.

COMES NOW Carlos W. Santiago, the captioned Pro Se undersigned,
Petitioner and very respectfully STATES, ALLEGES AND PRAYS:

I. Statement of the Case
One of the duties and faculties which a judge has regarding the post which
they tender, is to guarantee that the state comply with a fair and impartial trial as is
established within the Puerto Rico Constitution. Due Process of Law in a trial, as was
case #AC-2020-0051 (Appendix 1), does not expire nor acquire an expiration date.
Such constitutional right is demanded whenever the prejudiced party gains
knowledge of such a breach of his/her rights during a judicial proceeding. Among the
faculties and duties which the Puerto Rico Supreme Court bears, is to address such
claims whenever lower courts fail to act correctly. It is this highest court which bears
the obligation to correct such constitutional non-compliance. In the trial effected on
June 21st of 2016, the Trial Court suppressed from its Sentence, the factual confession
by the defendants. The Appeals Court erased same from it Ruling, and failed to allude
plus erased in its ruling, the admission by defendants as was stipulated in the
(criminal) complaint dated August 23rd of 2008. This aberration of judicial procedures
has no justification under law. The affirmation of illegally concealing a confession,
forceful and exculpatory proof, could not be therefore evaluated by the highest court,
since due process of law was not complied with.
In the hearing held on August 23rd of 2008, the judge authorized a police officer,
as representative of the State, to exit the court without the proceedings having

1

concluded. Such unlawful process prompted the complainant to properly submit his
case for appeal, since the judicial decision was to be delivered to the police officer.
Since that representative of the State (the police officer) was not present in court, the
court then denied its decision to complainant. Such failure to comply, by the State,
resulted to be discrimination. All decisions, rulings, or sentences must be notified to
both parties in any litigation. This failure to comply by the State thus becomes an
unjustified and unequal treatment (under the law). The court’s ruling never reached
the hands of the complainant. Moreover, the Court established a classification which
insides upon equal protection (and due Process) of the law.
Such transgression of law during stated hearing on August 23rd of 2008, arose
when the judge asked the complainant whether he would agree to have the police
officer exit the courtroom. Same was an undue interference by the judge, intended to
induce one party into error. As to justify said breach of law and judicial impartiality,
the judge availed himself on judicial technicalities to clearly favor the opposing party.
The Puerto Rico Supreme Court bears the obligation to guarantee impartial judicial
proceedings, and to correct such breaches to law, by taking jurisdiction over such
matters.

II. Predetermined Judicial Proceedings
An Ultra Vires judicial proceeding is one whereby a prejudged decision exists,
prior to initiation of a trial or hearing in court. All elements of a predetermined case
concur in Case # AC 2020-0051 (Appendix 1), which also bear on its agenda, solely to

2

comply with a judicial proceeding effected just to complete a case docket, since a
decision had been taken beforehand. Judicial decisions decided upon beforehand were
herein established when the judge, during the trial held on July 21st of 2016,
proceeded to conceal the confession regarding unnecessary noises and scandals filed
by plaintiffs. The methodology involved by disappearing stated confession from the
judgment rests on undermining stated admission, and upon comparing same to a
confession involving a robbery, a threat, a crime, a kidnapping, etc. The Court, upon
making stated comparison, demoted stated confession by defendants to a degree such,
that same does not merit to be considered within the judgment. There does not exist
any law or provision whatsoever, to differentiate between one sort of confession or
another. There exists no confession which is inferior or of lesser importance than
another. A confession is the admission of a crime, period. These were the unlawful
technicalities which the Court did as to occult exculpatory evidence which favored the
defendant. The court affirmed that predetermining any sentence is, under
jurisprudence, legal.
Such is how the basic rights of citizens are breached. It is inherent within the
adjudicative duties and faculties of the Supreme Court, to correct such unreasonable
aberration that is contrary to law, through new jurisprudence.

III. The Court Concealed a Confession
During the trial on June 21st of 2016, at courtroom 605, in Ponce, Puerto Rico,
and during cross-examination by plaintiff, Josean Toucet confessed under oath, that

3

unnecessary noises, shouting and roaring were indeed effectuated during baseball
games, and whenever the team that he and his friends followed, made a hit; then they
would proceed to shout, be disorderly whenever a run was made, and would make
scandals.
The same thing as well, when Mr. Josean Toucet was asked if this happened
when he watched basketball games, and he admitted that whenever his favorite team
scored points, they would all shout or become disorderly, or do so whenever their team
scored 3-point shots, he himself, and all his friends as well. Thus, there did exist
probable cause.
The Trial Court erred by concealing stated exculpatory evidence regarding
nuisance, noises and disorderly conduct admitted by Plaintiff Josean Toucet, during
cross-examination. Such was crass negligence by the Court since the judgment makes
no reference whatsoever regarding stated confession. Stated evidence exonerated the
respondent with regards to any culpability or negligence falsely raised within the
complaint. Due to stated omission, stated judgment should have been revoked.
In its ruling, the Court failed to mention that during cross-examination,
plaintiffs had admitted to all the facts. They confessed that they had indeed breached
the peace by making unnecessary noises and commotions after 12 a. m., in the wee
morning hours. Stated admission of facts voids any complaint filed against Carlos W.
Santiago. All jurisprudence thus quoted by the Court in its final ruling is therefore
null and void, in view of the confession regarding the events given by the plaintiffs.

4

And there did exist probable cause. Such actions by the State ('Court') failsjto-comnlvwith due process of law.
According to the Puerto Rican Juridical & Law Dictionary, confessions is
defined as: “A statement made by a person (suspect) who acknowledges to
have committed the crime. A confession may be oral or in writing.”
United States Supreme Court: Pyle V. Kansas, 317 U. S. 213
(1942). A petition for writ of habeas corpus alleging that the petitioner
is imprisoned upon a conviction obtained through the use of testimony
known by the prosecuting officers to have been perjured, and through
the suppression by them of evidence favorable to him, sufficiently
alleges a deprivation of rights guaranteed by the Federal Constitution,
and the denial of the petition without a determination as of the truth of
the allegation was an error. In this case Pyle V. Kansas means that the
suppression of evidence favorable to the accused was itself sufficient to
amount to a denial of the due process clause of the fourteenth
amendment.
Brady V. Maryland, 373 U. S. 83 - Supreme Court 1963.
Withheld by the prosecution in which Boblit admitted the actual
homicide favorable in the Brady trial. Suppression of evidence by the
prosecution denied petitioner Brady due process of law under the
fourteenth amendment. In Mooney V. Holohan, 294 U. S. 103.112.
Where the court ruled on what non-disclosure by a prosecutor violates
due process clause of the fourteenth amendment.

IV. State Representative Abandons the Non-Concluded Hearing
Appearing at the proceedings held on August 23rd of 2008 for the complaint
filed by the People of Puerto Rico versus (Appendix 3), appeared defendant
Mr. Carlos W. Santiago, jointly with the police officer assigned to said case. The then
defendant and later plaintiff, Josean Toucet, appeared with his legal counsel. The
hearing was initiated and the first party to testify was the then plaintiff, now
defendant, Mr. Carlos W. Santiago, and subsequently the indicated police officer.

5

Upon concluding his testimony, the officer requested permission from the uid-fe-to'withdraw, since he allegedly had other police matters to attend. The judge authorized
the agent to withdraw from the courtroom, granting him permission to so do, without
the hearing having yet ended. The accused party, Mr. Josean Toucet, promptly
testified without the presence of the state’s representative, the police officer, in the
courtroom. After that, his attorneys also did so as well. The court then made its
ruling, negligently, as a result of the non-appearance of the police officer, the state’s
designated witness.
This now defendant Carlos W. Santiago was, at this hearing, abandoned to his
own devise, lacking the police officer’s presence, whereas the opposing party was the
whole time assisted by his counsel, and thus placing the herein appellee at a
disadvantage. Moreover, in this case, Carlos W. Santiago was denied the possibility
to file any alternative complaint in view of the judicial ruling. As a result of stated
judicial ruling of non-existence of probable cause existed, then a complaint alleging
malicious persecution was filed against Carlos W. Santiago. The court failed to advise
him that, without the police officer’s presence in court, he would not be able to
advance his case or objections thereto. The State failed to comply with due process of
law.
Gideon V. Wainwright: 372 U. S. 335 (1963) US Supreme
Court: In stated case, Clarence Gideon was charged in Florida State
Court with a felony. Gideon broke into and entered a pool room with the
intent to commit a misdemeanor offense. Gideon asked the court to
appoint him an attorney, but court denied. The Supreme Court decision
as 9-0 majority in favor of Gideon. The Court held that the fourteenth
amendment’s guarantee of counsel is a fundamental right, essential to
a fair trial.

6

—- _ Constttulioilal~Law: Due .Process of Law: The Due Process
of Law Doctrine entails that the State bears the obligation to guarantee
that interference with the freedom and property of citizens be
effectuated by means of a fair and impartial process. Due process of law
protects citizens against actions by the State which shock the
conscience. As a result of this, governmental authorities are prohibited
from basically acting in a fundamentally unfair manner against the
citizenry. Under substantive Due Process of Law, the court proceeds to
examine the validity of a law, in view of pertinent constitutional
precepts, for purposes of protecting the fundamental rights of the
people. The State, whenever it approves laws or whenever same carries
out any actions, may not affect freedom or any property interests in an
unreasonable, arbitrary or whimsical manner. Due process of law, just
as are the majority of constitutional safeguards, fundamentally, protect
the people vis-a-vis the State. That is why, ordinarily, to be able to
judicially pose an alleged breach of constitutional law, it becomes
necessary that an action was undertaken by the State. The State action
is an indispensable requirement for a constitutional claim to move
forward under due process of law.

V. Complainant Never Received a Ruling
Appellant Carlos W. Santiago only discovered about the stated judicial ruling
on August 23rd of 2008, ten (10) months after being served process; the ruling on no
probable cause then appearing (Appendix 4) in the complaint filed against him on
June 29th of 2009. In his ruling, the Judge listed that copy of stated document be
personally delivered to the accused defendant party, Mr. Josean Toucet. It is from the
stated document that a civil action arose, and whereby this defendant is placed in a
disproportional disadvantage vis-a-vis the opposing party. Such a way to have
proceeded within justice classifies as discrimination against party Carlos W.
Santiago, upon thus not knowing why he was being sued therein. Defendant, now
plaintiff, personally obtained a copy of the ruling from the court; nevertheless, this

7

appellant was never given such a document, hv—fcbe—eeurtr-rn

:rom

e ponce

officer/witness, nor from the District Attorney, to then be able to adequately appeal
the case, as was proper. Such a right had been denied to me. It is highly improper
that this complainant, Carlos W. Santiago, discovered about the existence of said
legal ruling afterwards, and that he was also a defendant in a civil suit, through that
same civil action. The stated non-compliance does not justify unequal treatment
under the law. The court therefore established a kind of bias among persons by
denying this complainant a copy of the stated judicial ruling. The state failed to
comply with the constitutional guarantee of equal protection under the laws.
Equal Protection under the Laws: The constitutional
principle of equal protection under the law does not demand that equal
treatment be given always to the citizenry; what it does prohibit is any
unjustified unequal treatment. The State can provide classifications
among persons, without infringing upon equal protection laws,
whenever such classification is reasonable. To justify use of such a
classification, the Court has to identify whether such classification as
drafted, affects any basic right of a person, or it establishes any
suspicious classification which bears no relationship with the ability or
aptitude of those persons affected by stated classification. If such
classifications were thus discovered, then stated legislation is therefore
presumed to be unconstitutional.

VI. Undue Intrusion by the Court
This violation of law by the court arose when the judge asked complainant
Carlos W. Santiago, now the respondent, whether he agreed that the police officer
should exit the courtroom. This complainant, unknowingly answered in the
affirmative. A definition of what the judge had asked, its implications and
consequences of such a captious question entailed, resulted in that it was whether

8

/ was agreeing to waive my rnnfttitnt.inrml right.

flip fSt.at.p's pnTir.p

officer witness or the district attorney. Such was the undue interference by the judge
and that induced this appellant into error. The consequential result of stated question
was that the complainant, now respondent, was unable to submit his case for appeal
for absence of the state, as represented by the district attorney and police officer,
within the courtroom. This in turn entailed initiation of a civil complaint by the then
defendant, now plaintiff. In this case, the judge acted with prejudice, partiality or for
other reasons, upon improperly intervening with the impartiality due within the
judicial system. It was only after the trial that the complainant became aware that
the court allowed a breach of his constitutional rights. Stated breaches are contrary
to law, and it is proper that such error be remediated, and any subsequent legal
actions of civil nature be voided, annulled, and revoked therein.

VII. Preconceived Judicial Proceedings
During the Hearing dated August 23rd of 2008, when Appendix 3 was
presented, the judge then authorized the police officer to exit the court without the
hearing in full having been concluded. The police officer was who submitted the
(criminal) complaint to the court and was duly responsible for hearing the legal ruling
as to discuss same with the complainant so that same could have been raised on
appeal to another trial court judge, or petition to have such adverse ruling revoked
once properly received. Such would have been the legal steps before a local court. And
that legal process was suspended when the judge prompted the State’s representative

9

to exit the court. As a result of such i

etien-by llie court, this complainant was

unable to access such judicial ruling for lack of the stated police officer’s presence.
The judge ordered that copy be provided of the ruling writ to the defendant,
personally. The marshal appeared at defendant’s residence and hand-delivered copy
of the judicial ruling indicating no probable cause. Months later, that same marshal
appeared at the home of the defendant and served him the summons and the
complaint which was originated as result of the ruling which the complainant never
received. The stated judicial ruling appears in the suit as attachment 2-F Exhibit
XXIII (Appendix 4), and it was the first time that the complainant, now defendant,
gained access to the stated adverse legal ruling. Such preconceived intervention so
that the complainant be denied access to the court’s ruling until after he was sued, is
inherently illegal. The means to access the verdict or ruling was not guaranteed
within the time frame stipulated by law to obtain same. Correcting such a prejudice
befalls upon the duties and faculties borne by the Honorable Puerto Rico Supreme
Court.

VIII. PRAYER
No judicial authority may alter the testimony taken at trial under oath and
proceed to formulate any other one, since such action is unlawful, and such a step is
unacceptable under the law. A confession in open court does not become subjected to
alternate interpretation or criteria by any judge or court, since same is an admission,
period. It is not open to discussion or questioning whatsoever. It is an admission

10

provided as evidence. And the confession aHm-ittnrlWhy il^ rmw pla-mnRs during the
trial of June 21st of 2016, is more than sufficient evidence that same did exist. The
admission of facts, as reported on August 23rd of 2008 by the herein appellant hold.
Such acceptance of the now plaintiff was an acceptance, under oath, of his unlawful
infractions. The Honorable Court must have, within its obligations, included stated
confession in the case, and which then drastically and radically changed the whole
judgment, as per the herein quoted jurisprudence, and must therefore revoke, and
apply the law to the facts.
Respectfully submitted.
SO NOTIFIED

August £f. 2021
Date

Carlos W. Santiago-Rivera
Carlos W. Santiago-Rivera
Torre de Oro Condominium - Apartment 808
2175 Luis A. Ferre Blvd.
Ponce, P.R. 00717
Tel. 787-391-7069
<farmgabriela3@gmail.com>

11

